NO. 20-

(CAPITAL CASE)

IN THE
SUPREME COURT OF THE UNITED STATES

REINALDO DENNES,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice (Institutional Division),
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE

I, Kenneth McGuire, certify that on August 3, 2020, I served a copy of the foregoing Petition
for a Writ of Certiorari, Appendix, and Motion for Leave to Proceed In Forma Pauperis by United
States Postal Service first-class mail, postage pre-paid, upon the following person:
Cara Hanna
Office of the Attorney General
P.O. Box 12548, Capitol Station
Austin, Texas 78711-2548
cara.hanna@oag.texas.gov

KENNETH W. MCGUIRE*
McGuire Law Firm
P.O. Box 79535
Houston, Texas 77279
(713) 223-1558
kennethmcguire@att.net
*Counsel of Record

Counsel for Petitioner, Reinaldo Dennes

